No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,
PETITIONERS
v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the PETITION FOR A WRIT OF CERTIORARI, via email and first-class mail, postage
prepaid, this 14th day of November, 2019.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 4,391
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
November 14, 2019.

November 14, 2019

Noel J. Francisco
Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

WILLIAM P. BARR, ATTORNEY GENERAL,
ET AL.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.
WILLIAM E. RANEY
COPILEVITZ LAM & RANEY, PC
310 WEST 20TH STREET
SUITE 300
KANSAS CITY, MO 64108-2025
816-472-9000
BRANEY@CLRKC.COM
PAUL D. CLEMENT
KIRKLAND & ELLIS LLP
1301 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20004
PAUL.CLEMENT@KIRKLAND.COM
ROMAN MARTINEZ
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
SUITE 1000
WASHINGTON, DC 20004
202-637-3377
ROMAN.MARTINEZ@LW.COM

